IN THE SUPREME COURT OF THE UNITED STATES
NO._______________________
JOSE SANCHEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, C. Aaron Holt, do swear or declare that on this date, October 23, 2020, as
required by Supreme Court Rule 29, I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid.
The names and addresses of those served are as follows:
Jeff Wall
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
(and via electronic mail to SupremeCtBriefs@USDOJ.gov)
I declare under penalty of perjury that the foregoing is true and correct. Executed on
October 23, 2020.
/s/ C. Aaron Holt
C. Aaron Holt
Court-Appointed Counsel for Petitioner

